         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report



       EPA’s Terms and Conditions
       as Well as Process to Award
       Recovery Act Interagency
       Agreements Need Improvement
       Report No. 11-R-0016

       November 16, 2010
Report Contributors:                              Kimberly Crilly
                                                  Randy Holthaus
                                                  Janet Kasper
                                                  Kevin Lawrence
                                                  Madeline Mullen
                                                  Matthew Simber
                                                  Wendy Swan




Abbreviations

CERCLA     Comprehensive Environmental Response, Compensation, and Liability Act of 1980
EPA        U.S. Environmental Protection Agency
IA         Interagency Agreement
IHS        Indian Health Service (U.S. Department of Health and Human Services)
OFPP       Office of Federal Procurement Policy (Office of Management and Budget)
OIG        Office of Inspector General
OSWER      Office of Solid Waste and Emergency Response


Cover photo:	   Empty drums at the Price Landfill Superfund site in Pleasantville, New Jersey;
                EPA awarded $16,300,000 in Recovery Act funds to the U.S. Army Corps of
                Engineers for remedial action at this site. (EPA OIG photo)
                       U.S. Environmental Protection Agency 	                                             11-R-0016
                                                                                                   November 16, 2010
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review           EPA’s Terms and Conditions as Well as Process to Award

                                 Recovery Act Interagency Agreements Need Improvement 

We conducted this audit to
examine the U.S.
                                  What We Found
Environmental Protection
Agency’s (EPA’s) use of
interagency agreements (IAs)     EPA did not clearly describe its responsibilities in the terms and conditions of the
                                 Recovery Act-funded IAs we reviewed. As stated in federal guidance and EPA’s
for American Recovery and
                                 internal policies, an IA should identify both the requesting and servicing agencies’
Reinvestment Act of 2009
                                 responsibilities. EPA stated that defining its roles and responsibilities in IAs was
activities. Specifically, we
                                 unnecessary because its role was clearly defined in EPA policy and guidance.
sought to determine whether
Recovery Act IAs identified      However, because EPA did not clearly define its responsibilities within its
clear lines of responsibility    Recovery Act IAs and supporting documents, it did not effectively establish
                                 accountability for implementing those agreements.
and whether EPA awarded
Recovery Act IAs based on
sound business decisions.        We found that decision memoranda and matrices for EPA Recovery Act IAs met
                                 the requirements set forth in EPA policies, but we believe that additional detail
                                 would be beneficial. Specifically, for the Recovery Act IAs we reviewed, EPA’s
Background
                                 award documentation did not include an analysis of the costs of alternatives to
                                 establishing an IA to award and manage a Superfund cleanup construction
EPA uses IAs when it acquires
                                 contract. EPA issued several policy documents that required personnel to consider
goods and services from other
                                 experience, capability, and cost when entering into an IA. We believe EPA could
federal agencies. From
                                 improve its processes by considering the cost and level of effort associated with
February 17, 2009, through
                                 the procurement, management, and oversight of construction contracts for all
June 30, 2010, EPA awarded
                                 Superfund cleanup contracting delivery options. Such analysis would ensure that
$278 million of Recovery Act
                                 EPA has selected the most efficient and effective method from a technical,
funding through IAs under the
                                 resource, and cost perspective.
Superfund and Drinking
Water State Revolving Fund
programs for project              What We Recommend
management services.
                                 We recommend that EPA amend the terms and conditions for Recovery Act IAs
                                 under the Superfund and Drinking Water State Revolving Fund programs and
For further information,
                                 revise its standard terms and conditions for use in future IAs to include EPA’s
contact our Office of            roles and responsibilities. We also recommend that EPA prepare a program
Congressional, Public Affairs    evaluation of levels of effort and the cost of the processes associated with
and Management at                procuring, managing, and overseeing Superfund construction contracts, and use
(202) 566-2391.                  this program evaluation to develop a strategy for determining the best value for
To view the full report,         delivering Superfund construction contracts. In response to the draft report, EPA
click on the following link:     concurred with recommendations 2-1 through 2-3 and agreed to take corrective
www.epa.gov/oig/reports/2011/    action. EPA asked us to modify recommendation 3-1 and provided a revised
20101116-11-R-0016.pdf           recommendation; we accepted the suggested revision and added a second
                                 recommendation to ensure implementation.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                       November 16, 2010

MEMORANDUM

SUBJECT:	             EPA’s Terms and Conditions as Well as Process to Award
                      Recovery Act Interagency Agreements Need Improvement
                      Report No. 11-R-0016


FROM:                 Arthur A. Elkins, Jr.
                      Inspector General

TO:	                  Mathy Stanislaus, Assistant Administrator
                      Office of Solid Waste and Emergency Response

                      Peter S. Silva, Assistant Administrator
                      Office of Water


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report, calculated by multiplying the project’s staff days and expenses
by the applicable daily full cost billing rates in effect at the time, is $490,756.

Action Required

The Office of Water concurred with the draft report recommendations and completed corrective
action as of October 28, 2010. Therefore, we will close recommendations 2-2 and 2-3 upon
issuance of this report and no further response is required. For the remaining recommendations,
the Office of Solid Waste and Emergency Response (OSWER) is required to provide a written
response to this report within 90 calendar days, in accordance with EPA Manual 2750. OSWER
should include a corrective actions plan for agreed-upon actions, including milestone dates.
OSWER’s response will be posted on the OIG’s public website, along with our memorandum
commenting on that response. OSWER’s response should be provided in an Adobe PDF file that
complies with the accessibility requirements of section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that should not be released to the public; if
the OSWER response contains such data, OSWER should identify the data for redaction or
removal. We have no objections to the further release of this report to the public. We will post
this report to our website at http://www.ega.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Janet Kasper, Product Line Director, at (312) 886-3059 or kasper.janet@epa.gov.
EPA’s Terms and Conditions as Well as Process to Award                                                                      11-R-0016
Recovery Act Interagency Agreements Need Improvement



                                  Table of Contents 


Chapters 

   1	   Introduction ........................................................................................................      1         


                Purpose .......................................................................................................    1             

                Background .................................................................................................       1             

                Noteworthy Achievements...........................................................................                 3             

                Scope and Methodology..............................................................................                3             

                Prior Audit Coverage ...................................................................................           4             


   2	   EPA Should Update Interagency Agreement Terms and Conditions............                                                   5         


                Guidance Requires IAs to Include Each Agency’s Role..............................                                  5

                EPA’s Role Not Described ..........................................................................                6

                EPA Defined Its Role in Policy Rather Than Within the IA ..........................                                8

                Clearly Defined EPA Roles in IAs Would More Effectively 

                   Establish Accountability.........................................................................               9

                Recommendations ......................................................................................             9             

                Agency Response and OIG Comments ......................................................                            9


   3	   EPA’s Superfund IA Award Documentation Met Requirements, but

        Improvements Can Be Made .............................................................................                    10     


                Policies Establish IA Award Documentation Requirements ........................                                   10 

                EPA Met Its Requirements, but Improvements Are Needed .......................                                     12 

                EPA Should Consider the Cost of Alternatives ...........................................                          13

                Recommendations ......................................................................................            14

                Agency Response and OIG Comments ......................................................                           14 


   Status of Recommendations and Potential Monetary Benefits..............................                                        16     




Appendices 

   A    Superfund and Drinking Water State Revolving Fund Recovery Act IAs ....                                                   17     


   B    Recovery Act-Funded Superfund Site Projects and Managing Entities .......                                                 18     


   C    Agency Responses to Draft Report..................................................................                        19


   D    Distribution .........................................................................................................    29

                                 Chapter 1

                                  Introduction

Purpose
            As of June 30, 2010, the U.S. Environmental Protection Agency (EPA) had
            awarded $278 million of American Recovery and Reinvestment Act of 2009
            funding through interagency agreements (IAs) under the Superfund and Drinking
            Water State Revolving Fund programs.

            We conducted this audit to examine EPA’s use of IAs for Recovery Act activities.
            Specifically, we sought to determine whether:

                   1. EPA Recovery Act IAs identified clear lines of responsibility, and
                   2. EPA awarded Recovery Act IAs based on sound business decisions.

Background
            EPA awards an IA when the recipient is another federal agency and that agency is
            providing goods or services to EPA. When it issues an IA, EPA is the “requesting
            agency” and the recipient is the “servicing agency.” The servicing agency can
            directly perform the work EPA requested, or the servicing agency can contract out
            the work on EPA’s behalf.

            EPA’s Use of Recovery Act Funding

            The Recovery Act provided EPA $7.2 billion to stimulate the national economy,
            create and retain jobs, and invest in environmental protection and other
            infrastructure. The act included $600 million for the Superfund program and
            $2 billion for the Drinking Water State Revolving Fund program. To meet
            Recovery Act objectives and achieve the Agency’s environmental mission, EPA
            awarded Recovery Act funding under these two programs through several
            vehicles, including IAs, contracts, and cooperative agreements. From
            February 17, 2009, through June 30, 2010, EPA distributed $278 million in
            Recovery Act funds through IAs for these two programs (Table 1).




11-R-0016                                                                                   1
                              Table 1: EPA IA Funding by Program
                               Environmental Program           IA Funded Amount
                               Superfund                          $ 247,721,750
                               Drinking Water                        30,000,000
                               Total                              $ 277,721,750
                              Source: EPA’s Integrated Financial Management System 

                              (as of June 30, 2010). 



                               Superfund Program

                               The Superfund program’s goal is to clean up uncontrolled hazardous
                               waste sites that pose risks to human health and the environment. The
                               program was authorized under the Comprehensive Environmental
                               Response, Compensation, and Liability Act of 1980 (CERCLA). EPA has
                               several funding vehicles available for Superfund cleanups and must
                               decide which vehicle is best for a site. EPA’s choices for funding
                               remediation projects include IAs, contracts, and cooperative agreements.
                               The chief difference among these vehicles is the entity charged with
                               awarding and managing the cleanup construction contract. Site cleanup
                               construction contracts can be awarded and managed by EPA, an EPA
                               contractor, another federal agency (through an IA), or a State (through a
                               cooperative agreement). EPA awarded Recovery Act funds through EPA
                               contracts, cooperative agreements with the States, and IAs with the U.S.
                               Army Corps of Engineers (Corps) and the U.S. Department of the
Groundwater sampling wells.    Interior.
(EPA OIG photo)

                              Drinking Water State Revolving Fund Program

                              Tribal set-asides account for up to 1.5 percent of the Recovery Act’s
                              allocation for EPA’s state revolving fund. EPA transferred $30 million
                              through an IA to the U.S. Department of Health and Human Services’
                              Indian Health Service (IHS). These funds will be used to improve the
                              infrastructure of drinking water systems that serve Indian tribes and
                              Alaska Native Villages.

                       Office of Federal Procurement Policy IA Guidance

                       On June 6, 2008, the Office of Management and Budget, Office of Federal
                       Procurement Policy (OFPP), issued IA guidance titled Improving the
                       Management and Use of Interagency Acquisitions. The purpose of this guidance
                       is to help agencies achieve the greatest value from interagency acquisitions and
                       (1) make sound business decisions to support the use of interagency acquisitions,
                       and (2) strengthen the management of assisted acquisitions. The guidance
                       emphasizes the importance of delineating clear lines of responsibility when
                       developing IAs with respect to establishing requesting and servicing agencies’


      11-R-0016                                                                                            2
            roles for acquisition planning, contract administration, final inspection and
            certification, and other responsibilities.

Noteworthy Achievements

            The Recovery Act presented EPA with new challenges, including using the funds
            quickly and incorporating new terms and conditions. The act required that all
            funds be obligated by September 30, 2010. By September 30, 2009, EPA awarded
            all Recovery Act IAs for the Superfund and Drinking Water State Revolving Fund
            programs – 1 year before the deadline. The Agency also ensured that IAs included
            the specific terms and conditions established by the Office of Management and
            Budget’s Recovery Act implementing guidance. These terms and conditions
            addressed the period during which funds are available, new reporting
            requirements, and the Buy American and wage rate provisions.

            At the same time EPA was awarding Recovery Act funds, it was consolidating IA
            management into two service centers. Even with the consolidation, EPA was able
            to process all the funding packages before the obligation deadline in the act.

Scope and Methodology
            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our audit objectives.

            We conducted our audit work from July 2009 to May 2010. We interviewed EPA
            Headquarters staff in the Office of Water, Office of Solid Waste and Emergency
            Response (OSWER), and the Office of Administration and Resources
            Management. We met with personnel from Region 2, Region 10, and the
            Interagency Agreement Shared Service Center. We also interviewed staff from
            OFPP, IHS, and the Corps.

            We reviewed 5 of the 17 Recovery Act IAs that EPA awarded as of July 29, 2009.
            Of the 17 IAs, 15 were with the Corps and 2 were with IHS. We selected a
            random sample of 4 IAs that EPA Region 2 awarded to the Corps because 8 of 15
            Corps IAs were in Region 2. Our sample methodology ensured that we would
            select two new IAs and two existing IAs that EPA amended. We used IDEA
            software to select this random sample. We also selected one IA with IHS under
            the Drinking Water State Revolving Fund Program, bringing the total to five. The
            5 IAs we selected represented 34 percent of the total dollar value of the IAs EPA
            had awarded as of the start of our review. We selected the sample using EPA
            databases and determined that the reliability of the data they contained was
            sufficient for our audit work. We did not project the audit results to the universe


11-R-0016                                                                                    3
                 of IAs. See Appendix A for further details on the Recovery Act-funded IAs we
                 reviewed.1

                 We reviewed EPA policies and procedures for IA management. We identified and
                 tested EPA’s internal controls related to our objectives and determined that EPA
                 had a number of management controls for Recovery Act IAs. However, we
                 identified a weakness in internal control – namely, EPA’s roles and
                 responsibilities being included in the agreements – and reported that condition in
                 Chapter 2.

Prior Audit Coverage
                 In EPA OIG Report No. 2007-P-00021, EPA Can Improve its Managing of
                 Superfund Interagency Agreements with U.S. Army Corps of Engineers, issued
                 April 30, 2007, we stated that EPA should better justify and support its decisions
                 to enter into Superfund IAs with the Corps. In that report, we recommended that
                 EPA include cost estimates and a cost analysis of alternatives when awarding IAs
                 to the Corps. We also noted in the report that EPA should improve its monitoring
                 of IAs with the Corps to better manage cost, timeliness, and quality. In response,
                 EPA updated policy and conducted annual reviews of Corps IA justifications. On
                 August 8, 2007, the OIG issued a memorandum to the Agency and closed all but
                 one recommendation; the OIG closed the remaining recommendation in April
                 2008. EPA also submitted a Fiscal Year 2009 report to Congress regarding its
                 review of the Agency’s cost analysis practices in determining the best approach
                 for conducting Superfund work. During this review, we followed up on EPA’s
                 actions in response to the prior report recommendations.




1
 When we took the sample on July 29, 2009, EPA had awarded 17 Recovery Act IAs in the Superfund and State
Revolving Fund programs. As of June 30, 2010, EPA had awarded 19 Recovery Act IAs in the Superfund and
Drinking Water State Revolving Fund programs. Those agreements are listed in Appendix A, and the total amount
funded is reported earlier in this chapter.


11-R-0016                                                                                                       4
                                   Chapter 2

        EPA Should Update Interagency Agreement 

                 Terms and Conditions 

            EPA did not clearly describe its responsibilities in the terms and conditions of the
            Recovery Act-funded IAs we reviewed. OFPP guidance and EPA’s internal
            policies state that an IA should identify both the requesting and servicing
            agencies’ responsibilities. EPA stated that defining its roles and responsibilities in
            IAs was unnecessary because its role was clearly defined in EPA policy and
            guidance related to IAs. Because EPA did not clearly define its responsibilities
            within its Recovery Act IAs and supporting documents, it did not effectively
            establish its accountability for implementing those agreements.

Guidance Requires IAs to Include Each Agency’s Role
            OFPP guidance, Improving the Management and Use of Interagency Acquisitions,
            states that IA terms and conditions should include the requesting and servicing
            agencies’ responsibilities and respective roles. This guidance applies to all
            agreements initiated after October 1, 2008. Agencies are to define their respective
            roles to ensure effective IA management and use. The guidance also states that
            requesting and servicing agencies should work together to define their respective
            roles in the IA to effectively establish accountability.

            EPA guidance requires IAs to identify the roles and responsibilities of both
            agencies. EPA’s 2008 Interagency Agreement Policies, Procedures, and
            Guidance Manual requires that each agency’s responsibilities be identified,
            including the frequency of and procedures for EPA IA reviews. Also, the
            EPA/USACE Superfund Interagency Agreement Desk Manual, dated
            January 2009, specifies that EPA should include both agencies’ roles and
            responsibilities in IAs.

            All three of the guidance documents apply to EPA’s Recovery Act Superfund IAs
            with the Corps. However, only EPA’s Interagency Agreement Policies,
            Procedures, and Guidance Manual applies to the Recovery Act IA with IHS.
            While the guidance documents vary, all maintain that IAs should include the
            signatories’ roles and responsibilities.




11-R-0016                                                                                        5
EPA’s Role Not Described
            EPA did not clearly describe its responsibilities in the terms and conditions of the
            Recovery Act-funded IAs we reviewed. We reviewed four Recovery Act-funded
            IAs between EPA and the Corps for Superfund site cleanups and one Recovery
            Act-funded IA between EPA and IHS for Drinking Water State Revolving Fund
            water infrastructure projects. While the terms and conditions may differ from
            program to program, EPA uses standard terms and conditions for all IAs within
            each of those programs. In all five IAs we reviewed, the IA terms and conditions
            included the role and responsibilities for either the Corps or IHS, but EPA’s role
            and responsibilities were not defined.

            Superfund IA Terms and Conditions

            The Superfund IAs with the Corps we reviewed did not identify EPA’s role and
            responsibilities in three key areas the OFPP guidance identified. Those areas
            were:

                  Procuring contracts and developing the statement of work
                  Monitoring construction and operations and maintenance activities
                  Final inspection and certification

            Specific examples of the terms and conditions for these IAs follow.

            Procuring contracts and developing the statement of work. The term and
            condition regarding how contracts would be procured and how the statement of
            work would be developed did not specify EPA’s role in the process. The scope of
            work included with the terms and conditions in one IA we reviewed stated that the
            Corps will be responsible for:

                   Procuring the services of a remedial action contractor to perform
                   the soil remedial action at the former Imperial Oil facility. This
                   entails the development of the technical statement of work and
                   awarding the contract to a private firm(s).

            This term and condition did not describe the Agency’s role in procuring
            contractors or developing statements of work. OFPP guidance recommends that
            requesting agencies develop the statement of work with the servicing agency to
            ensure clearly defined requirements. Since the statement of work defines what the
            contractor is going to do at the site, and EPA is responsible for the cleanup, EPA
            should describe its participation in developing the statement of work.

            Monitoring construction and operations and maintenance activities. The term
            and condition regarding monitoring construction and operations and maintenance
            activities stated that EPA would coordinate with the Corps, but did not specify




11-R-0016                                                                                      6
            what EPA would do. The statement of work in one IA stated that the Corps will
            be responsible for:

                   Providing oversight and monitoring of construction in coordination
                   with the EPA Remedial Project Manager (RPM) to ensure
                   compliance with all contract requirements. In addition, the [Corps]
                   will provide weekly updates and meetings on the site to discuss
                   construction progress, problems, or any other pertinent issues.

            EPA did not include a description of the actions it would take to coordinate
            oversight and monitoring of the project. OFPP guidance recommended that
            requesting agencies include in their IAs activities to conduct appropriate
            oversight. EPA should describe its participation in overseeing and monitoring
            construction, as well as any meetings it will attend.

            Final inspection and certification. The term and condition pertaining to the final
            inspection and certification of completed projects was equally vague as to EPA’s
            role and part in the process. The statement of work in one IA stated that the Corps
            will be responsible for:

                   . . . conducting final inspection and certification of the completed
                   remedial action in coordination with the EPA RPM.

            EPA has ultimate responsibility for Superfund site cleanup. EPA’s Interagency
            Agreement Policies, Procedures, and Guidance Manual requires it to identify the
            responsibilities of each party. OFPP guidance recommends that requesting
            agencies “ensure deliverables are received and quality is acceptable.” EPA should
            include a description of the actions it would take for final inspection and
            certification.

            Drinking Water State Revolving Fund IA Terms and Conditions

            We reviewed one of two Recovery Act IAs that EPA established with IHS for
            water infrastructure projects on tribal lands and Alaska Native Villages. We noted
            that the servicing agency’s role is clearly defined, but EPA’s roles and
            responsibilities were not.

            One IHS term and condition stated that EPA shall be:

                   . . . formally notified of and invited to participate in the conceptual
                   design meeting, the final plans and specification review . . .

            This term and condition did not describe whether the Agency would participate in
            the conceptual design meeting or the final plans and specification review, or
            whether it would participate in any changes to the statement of work. EPA’s
            Interagency Agreement Policies, Procedures, and Guidance Manual requires that



11-R-0016                                                                                     7
            EPA identify its participation in design and planning activities. EPA should have
            articulated in the IA whether its role in the conceptual design meeting and final
            plans and specification review is one of comment or approval.

            The scope of work attached to the IA with IHS stated:

                   The IHS will provide quarterly, project-specific financial and
                   progress reports using the existing progress report format, which
                   will include, at a minimum, actual expenditures and milestones
                   achieved to date . . . IHS will make available to the EPA
                   Headquarters a progress report through an automated reporting
                   feature in its Sanitation Tracking and Reporting System (STARS).

            This term and condition did not describe how EPA would use these reports. EPA
            should have articulated how it will use these reports to ensure project progress
            and financial accountability. For example, EPA could describe steps it would take
            to address late reports and stalled projects.

            The IHS scope of work also stated:

                   The EPA shall be formally notified of and invited to participate in
                   the . . . final inspection for projects in which EPA funds are
                   utilized. IHS shall notify EPA at least 10 business days prior to
                   these events to allow optimal participation.

            This term and condition did not state whether EPA would participate in the final
            inspection. EPA should have stated how it would respond to any such invitation.

EPA Defined Its Role in Policy Rather Than Within the IA

            The Agency stated that defining EPA’s roles and responsibilities in IAs was
            unnecessary because its role was clearly defined in the relevant EPA policy and
            guidance. EPA defined many of its Superfund IA roles and responsibilities in its
            Superfund desk manual. EPA defined its roles and responsibilities for overseeing
            IHS IAs in its Oversight Protocol of Tribal Projects Executed through an
            Interagency Agreement with the Indian Health Service Funded by the 2009
            American Recovery and Reinvestment Act. Although EPA’s roles and
            responsibilities were presented in these policy and guidance documents, the
            Agency’s roles and responsibilities in Recovery Act IAs were not clearly defined
            because the IAs did not reference these policies or the responsibilities defined
            therein.




11-R-0016                                                                                       8
Clearly Defined EPA Roles in IAs Would More Effectively Establish
Accountability

            Because EPA did not clearly define its role in implementing Recovery Act IAs, it
            did not effectively establish its accountability for implementing those agreements.
            EPA did a good job of defining its role in its policies and procedures. However,
            the Agency should have defined those responsibilities within the IAs. When
            EPA’s role is not included in IAs, the Agency may incur higher costs and possible
            delays due to duplication of effort or misunderstanding of various agencies’ roles.

Recommendations
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

            2-1. 	 Revise standard terms and conditions for future IAs with the Corps to
                   include EPA’s roles and responsibilities and amend Recovery Act IAs
                   with the Corps as they are modified.

            We recommend that the Assistant Administrator for Water:

            2-2. 	 Amend the terms and conditions in Recovery Act IAs with IHS to include
                   EPA’s roles and responsibilities in the areas of design and planning,
                   construction monitoring, and final project inspection.

            2-3. 	 Revise standard terms and conditions for future IAs with IHS to include
                   EPA’s roles and responsibilities in the areas of design and planning,
                   construction monitoring, and final project inspection.

Agency Response and OIG Comments
            OSWER concurred with the recommendations and made a suggestion regarding
            only updating the terms and conditions for modified Recovery Act IAs. OSWER
            agreed to amend the standard terms and conditions by October 30, 2010. The OIG
            agreed with the suggestion and amended the recommendation.

            The Office of Water concurred with recommendations 2-2 and 2-3 and completed
            corrective action as of October 28, 2010. The OIG believes that the revised terms
            and conditions meet the intent of the recommendations and we will close these
            recommendations upon issuance of this report. No further response from the
            Office of Water is required.




11-R-0016                                                                                     9
                                  Chapter 3

      EPA’s Superfund IA Award Documentation Met 

      Requirements, but Improvements Can Be Made 

            We found that decision memoranda and matrices for EPA Recovery Act IAs met
            the requirements set forth in EPA policies, but we believe that additional detail
            would be beneficial. Specifically, for the Recovery Act IAs we reviewed, EPA’s
            award documentation did not include an analysis of the costs of alternatives to
            establishing an IA to award and manage a Superfund cleanup construction
            contract. EPA issued several policy documents that required personnel to consider
            experience, capability, and cost when entering into an IA. When entering into IAs,
            OSWER considered the cost of the Corps’ awarding and managing the cleanup.
            OSWER stated that it performs a “best value decision” based on a number of
            considerations that emphasize technical and resource requirements. We believe
            EPA could improve its process by considering the cost of alternative methods
            when deciding how best to fund the management of Superfund cleanups. Such
            analysis would ensure that EPA has selected the most efficient and effective
            method from a technical, resource, and cost perspective.

Policies Establish IA Award Documentation Requirements

            EPA issued several policy documents regarding IA justification. The policies vary
            in how they address the issue of cost. Some policies state that EPA is to consider
            the cost of the other federal agency’s management of the IA. Another policy states
            that IA decisions are to be based on whether the IA will be an efficient approach,
            considering both time and cost. Recent congressional language in the Duncan
            Hunter National Defense Authorization Act for Fiscal Year 2009, Section 865,
            included a requirement that regulations be updated to include a determination that
            the IA is the best procurement vehicle.

            EPA issued Interim Policy Notice 08-04 to ensure that Agency officials made
            sound business decisions when considering IAs. This policy notice states that all
            IAs over $200,000 awarded under statutory authority other than the Economy Act
            are subject to a best-interest determination that considers the servicing agency’s
            authority, experience, expertise, and the reasonableness of its fees.

            EPA also issued Grants Policy Issuance 02-01, which requires EPA offices to
            document why they will be using an IA and to consider time and cost for all IAs
            submitted after January 31, 2002. This policy issuance requires a statement that
            the cost of the proposed work is reasonable, considering efficiency, based on an
            independent estimate of cost or other appropriate cost information EPA
            developed. The policy states:


11-R-0016                                                                                   10
                         An approving office must document the reasons why it wants to
                         use an IA and include the reasons in the decision memorandum. In
                         general, the decision should be based on a finding that the IA will
                         be an efficient approach, considering both time and cost.

                 OSWER Policy 9200.1-83 2 requires regional offices to develop a decision
                 memorandum to document the analysis and decisions regarding use of the Corps
                 for Superfund work. Regional offices must complete a decision matrix that lists
                 several factors to consider, including whether:

                       Sufficient EPA resources are available for the acquisition of remedial
                        design or remedial action support.
                      Sufficient EPA resources are available to provide a significant or
                        extensive federal presence, if needed, at the site.
                      Particular experience such as with large, complex construction projects is
                        desirable.
                     	 The Corps, another federal agency, a State, or an EPA contractor such as a
                        remedial action contractor has unique or particularly relevant experience
                        working at the site or a similar site.

                 The policy also requires that EPA regional offices document and discuss all
                 vehicles considered:

                         The decision memorandum and matrix should document all
                         vehicles considered (e.g., Corps, other Federal agencies, EPA
                         contractors such as RAC [remedial action contractors], or
                         contracting options through state agencies), and discuss the various
                         factors and basis for the selection of Corps to conduct the work.

                 These policies assist EPA in making sound business decisions that support EPA’s
                 selection of an IA to conduct remedial actions that are protective of human health,
                 as required by CERCLA.

                 In the Duncan Hunter National Defense Authorization Act for FY 2009, Congress
                 requested an update to the Federal Acquisition Regulation. This update will
                 require agencies to determine that an IA is the best procurement alternative.
                 Agencies must include sufficient documentation in that determination to ensure an
                 adequate audit. When this update is complete, EPA will have to update its
                 policies.




2
 OSWER 9200.1-83, Policy for Issuing Superfund Interagency Agreements for Assigning Superfund Remedial
Design or Remedial Action Work to the U.S. Army Corps of Engineers and Other Federal Agencies, issued April 3,
2008.


11-R-0016                                                                                                   11
EPA Met Its Requirements, but Improvements Are Needed
            We found that decision memoranda and matrices for EPA Recovery Act IAs met
            the requirements set forth in EPA policies. The decision memoranda we reviewed
            showed that EPA selected IAs with the Corps based on the Corps’ capabilities and
            experience, and the reasonableness of its fees. EPA documented all of the factors
            it considered, and included explanations for some of its decisions. EPA also
            estimated the Corps’ cost for managing and overseeing construction.
            During our review, we noted that OSWER policy required regional offices to
            consider alternatives to an IA in its IA award documentation. The two new
            Recovery Act-funded IAs in our sample included the following statement when
            discussing EPA’s decision to use an IA:
                   Options were evaluated for the assignment and execution of the
                   work specified in the statement of work of this IA through various
                   available vehicles, including USEPA contractors and the US Army
                   Corps of Engineers. After consideration of each factor, EPA has
                   selected the Corps for the construction . . .
            While this discussion meets the requirements of the OSWER policy, we believe
            the policy should also require regional offices to analyze the costs of alternatives
            to awarding and managing the remedial activities at a site. A prior EPA OIG
            report included a similar conclusion and a recommendation about this issue. After
            the OIG report, the U.S. House of Representatives included language in the 2008
            House Appropriations Report (HR 110-87) stating the need to analyze the cost of
            alternatives. The 2008 House Report stated:
                   . . . the Agency needs to develop its own independent cost
                   estimates of the [Corps] work and conduct cost analysis of
                   alternatives prior to determining whether or not to engage the
                   [Corps].
            After the OIG and U.S. House of Representatives reports, OSWER updated
            Policy 9200.1-83. This policy required staff to consider the cost for the Corps to
            award and manage remedial activities, but did not go as far as to require a cost
            analysis of alternatives.

            EPA has several choices when determining who will manage cleanups, and
            regions differed in the choices they made when awarding Recovery Act funds.
            Region 2 more than other regions awarded IAs to the Corps. Region 2 selected the
            Corps for cleanups at 9 of 11 Recovery Act-funded Superfund sites. Figure 1
            illustrates the Recovery Act vehicles used in Region 2 (New York and New
            Jersey shown in blue). Red stars represent sites the Corps manages, and black dots
            represent sites an EPA contractor manages. (See map in Appendix B for Recovery
            Act funding for all Superfund sites.)




11-R-0016                                                                                     12
                     Figure 1: Region 2 Cleanup IAs




                     Source: U.S. Department of the Interior National Atlas Website and
                     EPA EnviroMapper database.


            EPA stated that a cost analysis of alternative funding vehicles is not
            necessary because it performs a “best value decision” based on a number
            of considerations, including cost, and that basing decisions solely on least
            cost criteria is not in the best interest of the government. Staff in EPA’s
            Office of Superfund Remediation and Technology Innovation explained
            that EPA decided many years ago that it was inherently more efficient to
            work with another federal agency that had construction management
            experience than expand EPA’s expertise in the area. The partnership with
            the Corps provides EPA with the flexibility to target the right funding
            vehicle (i.e., an IA, a contract, or EPA-managed contract) to the situation.
            While EPA has stated that the Corps is more efficient, it does not have
            documentation to support that the Corps is cost effective.

EPA Should Consider the Cost of Alternatives
            EPA did not consider the cost of alternatives to an IA with the Corps. As a result,
            the Agency could not demonstrate that the use of an IA to award and manage
            remedial activities was cost effective. Site cleanup construction contracts can be
            awarded and managed by EPA, an EPA contractor, another federal agency
            (through an IA), or a State (through a cooperative agreement). When making the
            decision to award an IA to the Corps, EPA considers technical and resource
            requirements and the cost of the Corps’ management of the IA. However, the
            Agency does not consider alternative methods, such as using an EPA contractor,


11-R-0016                                                                                    13
            when cost could be a significant factor. According to an Agency official, cost
            could be a significant factor for consideration in some circumstances, but there
            are instances in which other factors, such as technical and resource
            considerations, must take precedent. We believe that EPA should consider the
            cost of alternatives when other factors have not precluded the decision.

            EPA should firmly establish that its choice of funding vehicles for Superfund
            cleanups is based on sound business decisions. We believe that EPA could
            improve its processes by considering the cost and level of effort associated with
            the procurement, management, and oversight of construction contracts for all
            Superfund cleanup contracting delivery options. This strategy would address
            Congress’s concern that EPA should use not only the most timely but also the
            most cost-effective mechanism to complete cleanups. EPA should periodically
            review its process to develop and maintain current cost estimates and address the
            changing trends and needs of the Superfund program.

Recommendations
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

            3-1. 	 Prepare a program evaluation of levels of effort and the cost of the
                   processes associated with procurement, management, and oversight of the
                   construction contract for projects delivered by the Corps, EPA, or
                   remedial action contractors to support decisionmaking in selecting the
                   method of obtaining construction delivery services.

            3-2. 	 Use this program evaluation to provide transparency and aid in developing
                   a contracting strategy that will allow the EPA regional offices to make
                   informed decisions when determining the best value for delivering
                   Superfund construction projects.

Agency Response and OIG Comments
            In its response to the draft report, OSWER stated that it recognizes the benefit of
            evaluating levels of effort and associated costs to procure, manage, and oversee a
            construction contract for different construction delivery mechanisms. However,
            OSWER believes that when selecting the Corps, a comparison of costs for each
            possible funding vehicle is not practical or useful on an individual IA basis. The
            suggested alternative is the program evaluation currently underway to analyze
            practices and resources related to having different entities (EPA, contractors,
            Corps) to procure, manage, and oversee construction. OSWER stated that this
            evaluation may provide transparency and aid in developing a contracting strategy
            that will allow the regions to make informed decisions when determining the best
            value for delivering Superfund construction projects.



11-R-0016                                                                                      14
            OSWER explained that projects require different levels of technical, procurement,
            and project management expertise. A major factor in selecting the contracting
            vehicle is whether EPA has sufficient and skilled resources to oversee the
            remedial action. EPA also considers project-specific requirements, such as the
            construction delivery schedule and whether an expedited construction contract is
            needed. These factors are considered when choosing the contracting vehicle, and
            the determination of best value is documented in the decision memorandum.

            OSWER did not agree with the original draft recommendation, but proposed an
            alternative action. Recommendation 3-1 reflects the OSWER proposal, with an
            additional requirement for considering cost of various contracting vehicles during
            the program evaluation. We also added recommendation 3-2 to require OSWER
            to use the results of the program evaluation to develop a contracting strategy.
            In responding to the final report, OSWER should provide a milestone date for
            completing its evaluation and an action plan, with a milestone date, for addressing
            recommendations 3-1 and 3-2.




11-R-0016                                                                                   15
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion     Claimed       Agreed To
    No.      No.                          Subject                           Status1      Action Official           Date        Amount         Amount

    2-1       9     Revise standard terms and conditions for future IAs       O       Assistant Administrator    10/30/10*
                    with the Corps to include EPA’s roles and                          for Solid Waste and
                    responsibilities and amend Recovery Act IAs with                  Emergency Response
                    the Corps as they are modified.

    2-2       9     Amend the terms and conditions in Recovery Act            C       Assistant Administrator    10/28/10
                    IAs with IHS to include EPA’s roles and                                  for Water
                    responsibilities in the areas of design and planning,
                    construction monitoring, and final project
                    inspection.

    2-3       9     Revise standard terms and conditions for future IAs       C       Assistant Administrator    10/28/10
                    with IHS to include EPA’s roles and responsibilities                     for Water
                    in the areas of design and planning, construction
                    monitoring, and final project inspection.

    3-1       14    Prepare a program evaluation of levels of effort and      O       Assistant Administrator
                    the cost of the processes associated with                          for Solid Waste and
                    procurement, management, and oversight of the                     Emergency Response
                    construction contract for projects delivered by the
                    Corps, EPA, or remedial action contractors to
                    support decisionmaking in selecting the method of
                    obtaining construction delivery services.

    3-2       14    Use this program evaluation to provide                    U       Assistant Administrator
                    transparency and aid in developing a contracting                   for Solid Waste and
                    strategy that will allow the EPA regional offices to              Emergency Response
                    make informed decisions when determining the
                    best value for delivering Superfund construction
                    projects.




1    O = recommendation is open with agreed-to corrective actions pending 

     C = recommendation is closed with all agreed-to actions completed 

     U = recommendation is undecided with resolution efforts in progress 


*	 Although the milestone for Recommendation 2-1 has passed, the Agency has not provided the OIG with the documentation needed to verify implementation of
   the recommendation.




11-R-0016                                                                                                                                             16
                                                                                                          Appendix A

Superfund and Drinking Water State Revolving Fund Recovery Act IAs
                                                     IAs We Reviewed
   Cooperating               IA                   IA                                    Purpose
      Agency               Number              Amount
 Corps                   DW96941836           $20,000,000 Remedial Action – Vineland Chemical Company –
                                                            Operable Unit 3 – Vineland, NJ
 Corps                   DW96941935           $22,000,000 Remedial Action – Welsbach & General Gas Mantle Site –
                                                            Camden County, NJ
 Corps                   DW96942175           $16,300,000 Remedial Action – Price Landfill – Operable Unit 2 –
                                                            Egg Harbor and Pleasantville, NJ
 Corps                   DW96942176           $25,260,750 Remedial Action - Imperial Oil/Champion Chemical –
                                                            Operable Unit 3 – Morganville, NJ
 HIS                     DW75957660           $30,000,000 Drinking water infrastructure projects for Indian tribes and
                                                            Alaska Native Villages
                                                  IAs We Did Not Review
 U.S. Department         DW14953927              $400,000 Remedial Action – Eureka Mills Superfund site –
 of the Interior                                            Eureka Mills, UT
 Corps                   DW96940355           $13,703,000 Remedial construction work at the Hatheway and Patterson
                                                            Superfund site – Patterson, NJ
 Corps                   DW96940356            $8,000,000   Non-Time-Critical Removal Action for the Elizabeth Mine
                                                            Superfund site – Strafford, VT
 Corps                   DW96940357           $34,500,000   Remedial work at the New Bedford Harbor Superfund site –
                                                            New Bedford Harbor, MA
 Corps                   DW96941843            $6,000,000   Remedial Action Welsbach & General Gas Mantel –
                                                            Operable Unit 1 – Camden County, NJ
 Corps                   DW96942093           $27,000,000 Remedial Action for Slag Area and Sediments at the
                                                            Roebling Steel Superfund site – Operable Units 3/5 –
                                                            Florence Township, NJ
 Corps                   DW96942133            $5,000,000 Remedial Action for Operable Unit 2 at the Horseshoe
                                                            Road Superfund site – Sayreville, NJ
 Corps                   DW96942166           $30,000,000 Soil Remediation for Operable Unit 2 – Cornell Dubilier
                                                            Electronics Superfund site – South Plainfield, NJ
 Corps                   DW96942177            $3,000,000 Remedial Action for Operable Unit 1 – Monitor Devices/
                                                            Intercircuits, Inc. Superfund site – Lakewood Industrial Park
                                                            – Monmouth County, NJ
 Corps                   DW96942178            $3,958,000 Remedial Action - Operable Unit 2 – Emmell's Septic
                                                            Landfill Superfund site – Galloway Township, Atlantic
                                                            County, NJ
 Corps                   DW96953858              $700,000 Remedial Design – Eureka, UT
 Corps                   DW96953896           $25,400,000 Remedial Action – Eureka, UT
 Corps                   DW96957691            $1,500,000 Demolition of equipment and structures at Operable Units 2
                                                            and 4 – Wycoff/Eagle Harbor Superfund site – Bainbridge
                                                            Island, WA
 Corps                   DW96957692            $5,000,000 Remedial Action – contaminated yards –
                                                            Ruston and North Tacoma, WA
 Total:                                     $277,721,750
Source: EPA’s Integrated Financial Management System (as of June 30, 2010).

          Note: The table reflects all EPA Recovery Act IA awards as of June 30, 2010, under the Superfund and
          Drinking Water State Revolving Fund programs.



          11-R-0016                                                                                              17
                                                                                                                                             Appendix B

       Recovery Act-Funded Superfund Site Projects and Managing Entities




Recovery Act Superfund site
construction contract awarded to and   Number
managed by:                            of sites

     Another federal agency              13


     EPA contractor                      21


     EPA                                  8


     EPA and a State                      5
                                                  Source: U.S. Department of the Interior National Atlas Website and EPA EnviroMapper database.
     Combination of site managers
     (Appropriate symbols from above      4
     are both present)


                        11-R-0016                                                                                                    18
                                                                                  Appendix C

                    Agency Responses to Draft Report
                                        OCT – 4 2010
MEMORANDUM

SUBJECT:      Response to OIG Draft Audit Report, EPA Terms and Conditions and Process to
              Award Recovery Act Interagency Agreements Need Improvement

FROM:         Mathy Stanislaus
              Assistant Administrator

TO:           Melissa Heist, Assistant Inspector General
              Office of Audit


       Thank you for the opportunity to review and respond to the Office of Inspector General
(OIG) draft audit report, EPA Terms and Conditions and Process to Award Recovery Act
Interagency Agreements Need Improvement dated August 25, 2010. We appreciate the
continued dialogue and openness that the OIG team has afforded Office of Solid Waste and
Emergency Response (OSWER) during the course of this audit.

       The comments below represent a response from OSWER with coordination and comment
from the Office of Administration and Resources Management (OARM). The Office of Water is
responding separately. First, we would like to address each of the recommendations and provide
information about planned or initiated actions related to those recommendations. Second, we
provide additional comments to ensure that the final audit report contains accurate information.

OIG RECOMMENDATIONS AND OSWER RESPONSE

OIG Recommendation 2-1: Amend the terms and conditions in Recovery Act Interagency
Agreements (IAs) with the Corps to include EPA’s roles and responsibilities.

OSWER Response:

        OSWER suggests modifying this recommendation to read “Amend the terms and
conditions in new or modified Recovery Act Interagency Agreements ….” In light of existing
policy, guidance, and training for EPA Remedial Project Managers (RPM), and project officer
roles during the implementation of design and construction, amending existing IAs is of limited
value and would involve expending limited resources. OSWER intends to update standard terms
and conditions pertaining to EPA’s role in procuring contracts and developing the statement of
work; monitoring construction and operations and maintenance activities; and final inspection
and certification. Once updated, the standard terms and conditions will be incorporated into
Recovery Act IAs as they are amended.




11-R-0016                                                                                       19
OIG Recommendation 2-2: Revise standard terms and conditions for future IAs with the Corps
to include EPA’s roles and responsibilities.

OSWER Response:

        To meet the intent of the OFPP guidance, Improving the Management and Use of
Interagency Acquisitions, and to provide documented EPA accountability, OSWER is
committing to drafting standard terms and conditions outlining EPA’s roles in the IA
implementation process. OSWER is coordinating with the Corps and our Regional program
offices to develop generic terms and conditions pertaining to EPA’s role in procuring contracts
and developing the statement of work; monitoring construction and operations and maintenance
activities; and final inspection and certification.

       OSWER plans to have these generic terms and conditions drafted by October 30, 2010.
Once drafted, these terms and conditions will be added to the standard Superfund terms and
conditions for Superfund IAs that are used for all new IAs and existing IAs, as they are amended.

OIG Recommendation 3-1: When cost is a viable consideration in selecting the funding
vehicle, require that EPA offices compare the total cost of each funding vehicle as part of the
decision matrix. The decision matrix should be supported by sufficient documentation as to how
the costs were compared. If cost is not a viable consideration, the decision matrix should
document why it is not.

OSWER Response

      OSWER recommends replacing recommendation 3-1 with a recommendation for a more
comprehensive comparison of construction delivery options:

3-1    Prepare a program evaluation of levels of effort and processes associated with
procurement, management and oversight of the construction contract for projects delivered by
the Corps, EPA or Remedial Action Contractors to support decision making in selecting the
method of obtaining construction delivery services.

        OSWER recognizes the benefit of evaluating levels of effort and associated costs to
procure, manage, and oversee a construction contract for different construction delivery
mechanisms. However, OSWER believes when selecting the Corps, a comparison of costs for
each possible funding vehicle is not practical or useful on an individual IA basis. The suggested
alternative is the program evaluation currently underway to analyze practices and resources
related to having different entities (EPA, contractors, Corps) to procure, manage and oversee
construction. This evaluation may provide transparency and aid in developing a contracting
strategy that will allow the Regions to make informed decisions when determining the best value
for delivering Superfund construction projects.

Additional Explanation:




11-R-0016                                                                                      20
        Each Superfund construction project is unique. Some projects are relatively
straightforward while other projects are more complex. Projects require different levels of
technical expertise, procurement expertise, or project management expertise. The evaluation of
these considerations is fundamental in determining which construction delivery mechanism is
best suited for the project.

        When EPA Regions are determining how to deliver a construction project, the Regions
evaluate who will procure, manage, and oversee the construction contract. The Regions have
several options: in-house procurement, use an Architecture/Engineering Firm (Remedial Action
Contractor), use EPA Emergency Removal and Response (ERRs) contractor, use the State
through a Cooperative Agreement (CA), or use the Corps. When determining which vehicle is
most appropriate for a specific construction project, EPA evaluates the Regional EPA resources
required to deliver the project and the project/site characteristics.

         The EPA Superfund remedial program and contract staff required and the relative level of
effort necessary to deliver the construction project depends on the delivery vehicle as well as the
size, scope and duration of the construction project. For project-specific contracts procured in-
house, EPA Regions evaluate whether there are sufficient and skilled EPA resources and
sufficient time available for those resources to provide government construction cost estimating
expertise, contract procurement, contract management, and construction management and
oversight. In evaluating which contract instruments are used, our ongoing analysis has found
this is a major factor in determining which vehicle is used. When EPA contracts out these
services, EPA staff and resources are required to manage and oversee the Remedial Action
Contractor, the ERRs contractor or the Corps delivery of these services. The Corps, however,
conducts the procurement and oversight steps that would be performed by contractors or EPA
staff depending on the vehicle. (See Attachment 1) In addition to an evaluation of EPA
resources, EPA also evaluates whether existing Regional contract resources have sufficient
capacity or contract ceiling to provide procurement, management and oversight functions
necessary to deliver the size, scope and duration of the construction project.

       In addition to determining whether the necessary EPA resources and contract capacity are
available, EPA considers project-specific characteristics. When delivering a construction
project, construction delivery schedule constraints or expedited procurement of the construction
contract may be necessary. As such, EPA may require a delivery vehicle that will provide
expedited procurement of the construction contract. In addition, some construction projects
require relocation or real estate acquisitions, and EPA may require a delivery vehicle that can
provide such these services. Furthermore, EPA projects vary in size and complexity. Size and
complexity provide characterization and design challenges that may lead to project-specific
uncertainties. These uncertainties result in project risks that, if realized, may result in a
significant change to project schedule and/or project cost. When evaluating these project risks,
EPA may require a construction delivery vehicle that provides both construction and contract
management expertise and flexibility.

     The factors discussed above are the considerations that are evaluated and used to determine
which construction delivery vehicle is the best value for the government. When EPA chooses




11-R-0016                                                                                       21
the Corps as the delivery vehicle, the determination of best value is documented in the decision
memorandum.

      Once the best value determination is made and if EPA chooses to contract out construction
delivery services, EPA prepares an Independent Government Cost Estimate (IGCE) for the
construction project to ensure that the resulting contract or IA is cost-effective. In its
Independent Government Cost Estimate guide, the Office of Acquisition Management (OAM)
defines an IGCE as “the Government’s detailed projection of what a reasonably prudent business
person should pay to obtain the best value for a product or service, including priorities and
assumptions current at the time the estimate was made”. EPA requires IGCEs before entering
into both contracts and IAs. The EPA - prepared IGCE evaluates the levels of effort and
associated costs deemed necessary to procure, manage, and oversee the construction contract. It
also references the construction contract cost estimate from the design, which was finalized and
agreed upon by EPA when the final design was submitted. Therefore, the construction contract
cost will be the same for an IGCE prepared for either a contract or an IA. The IGCE is then
compared to the cost proposed by the contractor of the Corps for their staff efforts. Discussions
and negotiations are based off of this IGCE estimation process. The final contractor or Corps
costs are a result of this process. Once the contract or IA is awarded, the Corps or contractor then
competes, negotiates and awards the construction contract on behalf of EPA.

OTHER OSWER COMMENTS:

At a Glance

1.      We recommend modifying the last two sentences in the “What We Found” section as
follows:

We believe EPA could improve its process by considering the cost and level of effort associated
with procurement, management and oversight of the construction contract for all Superfund
clean-up contract delivery options. of alternative methods when deciding how best to fund the
management of Superfund clean-ups . Such analysis would ensure that EPA has selected the
most efficient and effective method from a technical, resource, and cost perspective.

2.      The last sentence in the “What We Recommend” section does not seem consistent with
the recommendation in the text. The statement leads the reader to believe that you are
recommending a cost analysis for all IAs. The recommendation, as it currently reads in Chapter
3, does not state this. We recommend that you consider our response to Recommendation 3-1
above and ensure that both the overview and the Chapter 3 recommendation are consistent.

Chapter 1

Comment 1

On page 2, under “Superfund Progam” the last sentence states:




11-R-0016                                                                                        22
“EPA awarded Recovery Act funds through EPA contracts, cooperative agreements with the
State, and IAs with the U.S. Army Corps of Engineers (the Corps) and the U.S. Department of
Health and Human Services.”

Superfund stimulus dollars were not obligated to the U.S. Department of Health and Human
Services. They were awarded to the Corps and the Department of the Interior. We recommend
that you correct this reference.

Comment 2

On page 4, under the “Prior Audit Coverage” heading, we recommend you add an additional
sentence to clarify Congress’s acceptance that EPA met the cost requirement requested by
preparing an IGCE and comparing EPA’s estimate to the servicing agency’s estimate.

Chapter 3

Comment 1

On page 11, you reference CERCLA by providing the following language:

“ ….. select a remedial action that is protective of human health and the environment, that is
cost-effective, and that utilizes permanent solutions and alternative treatment technologies or
resource recovery technologies to the maximum extent practicable”

The quotation comes from CERCLA section 9621 which discusses the selection of a remedy.
This section of CERCLA further states that:

“In evaluating the cost effectiveness of proposed alternative remedial actions, the President shall
take into account the total short- and long-term costs of such actions, including the costs of
operation and maintenance for the entire period during which such activities will be required.”

The cost effectiveness discussed in this context refers to the remedy selection process and does
not define “cost effectiveness” in the context of construction delivery services. As such, we
recommend that this CERCLA quote be omitted since it is out of context.

Comment 2

Page 12: The third paragraph cites the 2007 OIG report recommendation and 2008 House
Report recommendation for a “cost analysis of alternatives prior to determining whether or not to
engage the [Corps].”

In Chapter 1, under “Prior Audit Coverage”, it states (related to the 2007 audit):

“On August 8, 2007, the OIG issued a memo to the Agency and closed all but one
recommendation; the OIG closed the remaining recommendation in April 2008”.




11-R-0016                                                                                          23
This language reiterates that OSWER responded to the OIG with its corrective actions and the
OIG accepted the response. The acceptance is documented by the OIG closing out all
recommendations. OSWER’s response to the recommendation cited above was to complete an
IGCE for the Corps staff time needed to procure, manage and oversee the construction contract.

Furthermore, in response to the House Report, EPA submitted a response stating that we meet
the cost requirement by preparing an IGCE and comparing EPA’s estimate to the servicing
agency’s estimate. This was accepted by the House.

Based on the facts stated above, the items are resolved and we recommend striking reference to
the previous OIG recommendation since it is closed and the OIG accepted OSWER’s corrective
action.

Comment 3

Page 12, last paragraph: We suggest the following revision:

EPA has several choices when determining who will manage cleanups, and regions differed in
the choices they made when awarding Recovery Act funding. (See map in Appendix B.)
Region 2 more than other regions had a preference toward awarded IAs with the Corps. Region
2 selected the Corps for cleanups at 9 of 11 Recovery Act funded Superfund sites. While
OSWER has stated that the Corps is a cost effective approach, it does not have the detailed
documentation to support that position. The following map illustrates the Recovery Act vehicles
used in Region 2 (New York and New Jersey shown in blue). Red stars represent sites the Corps
manages, and black dots represent sites a contractor manages.

Comment 4

Page 12, fourth paragraph: We recommend striking the following sentence:

“For the Recovery Act IAs we reviewed, the procurement/assistance costs were a substantial
portion of the IA”.

From our discussion above in Recommendation 3-1, the construction contract cost estimate is a
deliverable from the design. This estimate is the cost documented in the
“procurement/assistance” portion of the IA. As argued above, this number is a fixed estimate for
the construction contract and will be the same for any construction delivery vehicle. Once the
delivery vehicle is chosen as the best value for procuring, overseeing, and managing the
construction contract, the construction contract itself is then competed in the open marketplace
and awarded as a separate contract.

As such, we recommend that this sentence be omitted.




11-R-0016                                                                                     24
Comment 5

Page 13, chapter title: “EPA Could Not Demonstrate Using an IA was Cost Effective.” As
stated above in OSWER’s response to recommendation 3-1, OSWER believes that by definition,
an IGCE provides detailed documentation to support the position that the USACE is a cost-
effective option.

OSWER recommends that this title be changed.

Comment 6

Page 14, last paragraph before “Recommendation” section: EPA disagrees with the statement
that a cost analysis for all viable funding vehicles, not just Corps’ management of an IA, is
needed in order to firmly establish the choice of the Corps is a sound business decision.

OMB defines the following factors as criteria for making a sound business decision for non-
economy agreements: authority, experience, expertise, ability, performance, and reasonableness
of fees. We believe that these criteria have been met and that a sound business decision to use
the Corps, by definition, was done. Furthermore, the OIG agreed on page 12 (first sentence)
that:

“The decision memoranda we reviewed showed that EPA selected IAs with the Corps based on
the Corps’ capabilities and experience, and the reasonableness of its fees”.

We recommend that this paragraph be modified. In it’s place, perhaps the OIG can have a
discussion on a Superfund program evaluation of costs to procure, manage, and oversee
construction contractors to support the modified recommendation 3-1 suggested above.

       Thank you for the opportunity to review the draft report. If you have any questions
regarding our comments please contact Kate Garufi at 703-603-8827 or Johnsie Webster,
OSWER Audit Liaison at 202-566-1912.

Attachment 1

cc:    L
       	 isa Feldt, OSWER
       Barry Breen, OSWER
       Renee Wynn, OPM
       James Woolford, OSRTI
       Robin Richardson, OSRTI
       Cheryl Upton, OSRTI
       Elizabeth Southerland, OSRTI
       David Cooper, OSRTI
       John Smith, OSRTI
       Barbara McDonough, OSRTI
       Emily Johnson, OSRTI
       Kate Garufi, OSRTI



11-R-0016                                                                                       25
      Attachment 1 – Superfund Construction Delivery Options




11-R-0016                                                      26
                                             SEP 27 2010
                                                                                     OFFICE OF
                                                                                       WATER
MEMORANDUM

SUBJECT:       Draft Office of Inspector General (OIG) Audit Report:
               EPA's Terms and Conditions and Process to Award Recovery Act Interagency
               Agreements Need Improvement
               (Project No . OA-FYgg-q919, August 25, 2010)

FROM:          Peter S. Silva, Regional Administrator

TO:            Melissa Heist, Assistant Inspector General
               Office of Audit

        On August 25, 2010, the Office of Inspector General (OIG) released a report entitled
“EPA's Terms and Conditions and Process to Award Recovery Act Interagency Agreements
Need Improvement." I thank you for acknowledging the efforts of EPA's Tribal drinking water
program and our partner agency the Indian Health Service (IHS) to ensure that all funds under
the State Revolving Fund (SRF) drinking water tribal set-aside were obligated ahead of the
September 30, 2010, deadline in the American Recovery and Reinvestment Act.

        We concur with your report recommendation to amend the terms and conditions in the
Recovery Act Interagency Agreement (IA) with IHS to include EPA's roles and responsibilities
in the areas of design and planning, construction monitoring, and final project inspection
(Recommendation No. 2-3). We are acting on this recommendation and will provide you with a
copy of the amended Recovery IA when completed. Text of the proposed additions is included
as an attachment to this memorandum.

        We also concur with your recommendation to revise the standard terms and conditions
for future IAs with IHS to include descriptions of EPA's roles and responsibilities in the areas of
design and planning, construction monitoring, and final project inspection (Recommendation No.
2-4). We have addressed this recommendation. The terms and conditions for the future IAs with
IHS are also included in the attachment. The revised terms and conditions for future IAs with
IHS have been provided to the Interagency Agreement Shared Service Center (IASSC) West for
incorporation into the Integrated Grants Management System (IGMS) standard conditions for
IAs with IHS.

       If you have any questions concerning the contents of this memorandum, you may contact
me or have your staff contact Ron Bergman, Chief, Drinking Water Protection Branch, Office of
Ground Water and Drinking Water, at (202) 564-3823.

Attachment
cc    Armina Nolan, Manager, IASSC West
      Denise Benjamin Sermons, Deputy Director, Office of Grants and Debarment




11-R-0016                                                                                       27
                                           Attachment
EPA IHS IA Language Additions to Address EPA's IG Recommendations included
in EPA IG Report # OA-FY09-0919 (August 25, 2010)

EPA OIG Recommendation:

2-3 	   Amend the terms and conditions in Recovery Act IAs with IHS to include EPA's roles and
        responsibilities in the areas of design and planning, construction monitoring, and final
        project inspection.

Proposed Additions under EPA Contributions in Recovery Act IA:

12. 	   Where appropriate, EPA Regions shall provide comments to IHS Area Offices on the
        design and planning documents associated with projects funded by the IA within 30 days
        of receiving said documents.

13. 	   EPA Regions shall monitor construction progress with: data from the IHS database,
        discussions with the IHS Area Offices and field site visits as necessary to ensure the
        level of expended funds is reasonable given the reported milestone dates.

14. 	   The EPA Regions will participate in the final project inspection, resources permitting. At
        project completion, the EPA Region will review the final technical and financial reports
        provided by the IHS Area Office and will initiate the necessary EPA closeout process.

15. 	   The EPA Regions will acknowledge and respond to IHS Area Offices invitations to
        participate in project activities within 10 days of receipt.

EPA OIG Recommendation:

2-4 	   Amend the terms and conditions for future IAs with IHS to include EPA's roles and
        responsibilities in the areas of design and planning, construction monitoring, and final
        project inspection.

Additions under EPA Contributions in future IAs with IHS:

7. 	    Where appropriate, EPA Regions shall provide comments to IHS Area Offices on the
        design and planning documents associated with projects funded by the IA within 30 days
        of receiving said documents.

8. 	    EPA Regions shall monitor construction progress with: data from the IHS database,
        discussions with the IHS Area Offices and field site visits as necessary to ensure the
        level of expended funds is reasonable given the reported milestone dates. The EPA will
        consult with the IHS Area Office quarterly to discuss project status.

9. 	    The EPA Regions will participate in the final project inspection, as deemed necessary
        and resources permitting. At project completion, the EPA Region will review the final
        technical and financial reports provided by the IHS Area Office and will initiate the
        necessary EPA closeout process.

10. 	   The EPA Regions will acknowledge and respond to IHS Area Offices invitations to
        participate in project activities within 10 days of receipt.


11-R-0016                                                                                          28
                                                                              Appendix D

                                     Distribution

Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Water
Assistant Administrator for Administration and Resources Management
Regional Administrator, Region 2
Agency Followup Official (the CFO)
Audit Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Office of Water
Audit Followup Coordinator, Office of Administration and Resources Management
Audit Followup Coordinator, Region 2




11-R-0016                                                                                29
